              TABLE OF CONTENTS


INSPECTOR GENERAL’S MESSAGE                  i
NCUA AND OFFICE OF INSPECTOR GENERAL
                                             1
  MISSION STATEMENTS
INTRODUCTION                                 2
NCUA ORGANIZATIONAL CHART                    5
NCUA HIGHLIGHTS                              6
FEDERALLY INSURED CREDIT UNIONS HIGHLIGHTS   9
LEGISLATIVE HIGHLIGHTS                       11
OFFICE OF THE INSPECTOR GENERAL              13
   AUDIT ACTIVITY                            15
   INVESTIGATIVE ACTIVITY                    23
   LEGISLATIVE AND REGULATORY REVIEWS        26
TABLE I – REPORTS WITH QUESTIONED COSTS      28
TABLE II – REPORTS WITH RECOMMENDATIONS
                                             29
  THAT FUNDS BE PUT TO BETTER USE
TABLE III – SUMMARY OF OIG ACTIVITY          30
INDEX OF REPORTING REQUIREMENTS              31
                                                             On the investigative side, the OIG closed a criminal case
                                                             involving unauthorized access of a government computer
                                                             by a former employee, after a U.S. District Court handed
                                                             down a sentence of two years supervised probation, 50
                                                             hours of community service, and a $4,000 fine. That case
                                                             was investigated by Special Agents of the NCUA OIG and
                                                             the Federal Bureau of Investigation.

                                                             As in the past, the NCUA Board and management have
                                                             been responsive in attempting to implement all OIG
          INSPECTOR GENERAL'S MESSAGE                        recommendations. I appreciate management’s support
               TO THE NCUA BOARD                             and I look forwarding to working with you in our ongoing
               AND THE CONGRESS                              efforts to promote economy and efficiency in agency
                                                             programs.

The attached semiannual report covers the Office of
Inspector General’s (OIG) activities for the previous six
month reporting period, ending March 31, 2007, and is
submitted in accordance with Section 5 of the Inspector
                                                                                             William A. DeSarno
General Act of 1978, as amended.
                                                                                             Inspector General
During this reporting period, the OIG issued an audit of
the National Credit Union’s (NCUA) financial statements as
well as conducted an annual security review as mandated
in the Federal Information Security Management Act. In
connection with its FISMA review, the OIG subsequently
performed a limited scope review assessing the NCUA’s
actions to ensure that personally identifiable information
and sensitive information is safeguarded as required by
the Office of Management and Budget. The audit staff
also completed and reported on a review to determine
whether NCUA provides effective supervision over federally
chartered credit unions’ compliance with Office of Foreign
Assets Control requirements.

                            i                                                           ii
   OIG Semiannual Report                 March 2007                   OIG Semiannual Report               March 2007



                THE NCUA MISSION
                                                                                     INTRODUCTION
NCUA’s charge is to foster the safety and soundness of
federally insured credit unions and to better enable the credit   The National Credit Union Administration (NCUA) was
union community to extend the availability of financial           established as an independent, federal regulatory agency on
services for provident and productive purposes to all who         March 10, 1970. The agency is responsible for chartering,
seek such service, while recognizing and encouraging credit       examining, supervising, and insuring federal credit unions. It
unions’ historical emphasis on extension of financial services    also insures state-chartered credit unions that have applied
to those of modest means.                                         for insurance and have met National Credit Union Share
                                                                  Insurance requirements. The NCUA is funded by the credit
The NCUA’s mission is accomplished by managing the                unions it supervises and insures. As of December 31, 2006,
National Credit Union Share Insurance Fund in an efficient        the NCUA was supervising and insuring 5,189 federal credit
and prudent manner through an effective supervision               unions and insuring 3,173 state-chartered credit unions, a
program and a regulatory environment that encourages              total of 8,362 institutions. This represents a decline of 204
innovation, flexibility and continued focus on attracting new     federal and 129 state-chartered institutions since December
members and improving financial service to existing               31, 2005, for a total decline of 333 credit unions nationwide,
members.                                                          primarily as a result of mergers.

                                                                  The NCUA operates under the direction of a Board composed
                                                                  of three members. Board members are appointed by the
                                                                  President and confirmed by the Senate. They serve six-year
                                                                  terms. Terms are staggered, so that one term expires every
                                                                  two years. The Board is responsible for the management of
 THE OFFICE OF INSPECTOR GENERAL MISSION                          the National Credit Union Administration, including the NCUA
                                                                  Operating Fund, the Share Insurance Fund, the Central
The OIG promotes the economy, efficiency, and effectiveness       Liquidity Facility, and the Community Development Revolving
of NCUA programs and operations, and detects and deters           Loan Fund.
fraud, waste, and abuse, thereby supporting the NCUA’s
mission of monitoring and promoting safe and sound federally      The NCUA executes its program through its central office in
insured credit unions.                                            Alexandria, Virginia and regional offices in Albany, New York;
                                                                  Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and
We accomplish our mission by conducting independent audits,       Tempe, Arizona.       The NCUA also operates the Asset
investigations, and other activities, and by keeping the NCUA     Management and Assistance Center (AMAC) in Austin, Texas.
Board and the Congress fully and currently informed of our        Please refer to the NCUA organizational chart on page 5.
work.
                              1                                                                 2
   OIG Semiannual Report              March 2007               OIG Semiannual Report                              March 2007




The NCUA Board adopted its 2007 budget of $152,016,840 on
November 16, 2006. The Full-Time Equivalent (FTE) staffing                                 NCUA Budget Dollars
authorization for 2007 is 958, remaining unchanged from the     Millions
2006 total.                                                          153
                                                                     152
                                                                     151
                                                                     150
                                                                     149
                                                                     148
                                                                     147
          Federally Insured Credit Unions                            146
                                                                     145
                                                                     144
                                                                     143
10000                                                                        2002      2003       2004     2005    2006   2007


8000 3866 3735 3593
                    3442 3302
                              3173
6000

4000                                                                                       NCUA Authorized Staff
        6118 5953 5776 5572 5393
                                 5189                         1000
2000                                                           900
                                                               800
    0                                               FISCUs     700
        2001 2002 2003 2004 2005 2006               FCUs       600
                                                               500
                                                               400
                                                               300
                                                               200
                                                               100
                                                                 0
                                                                      2002          2003        2004       2005    2006    2007




                            3                                                                          4
OIG Semiannual Report   March 2007       OIG Semiannual Report                 March 2007




                                                      NCUA HIGHLIGHTS
  NCUA ORGANIZATIONAL CHART
                                     CHAIRMAN JOHNSON TESTIFIES ON CREDIT UNION
                                     SUBPRIME PRACTICES AND PRODUCTS

                                     NCUA Chairman JoAnn Johnson testified on March 27, 2007,
                                     before the House Subcommittee on Financial Institutions and
                                     Consumer Credit concerning subprime mortgage practices
                                     and products and foreclosures in relation to credit unions.
                                     Chairman Johnson testified that to effectively reach out to
                                     disadvantaged and lower income individuals, some credit
                                     unions offer nontraditional mortgage products and loans to
                                     subprime borrowers.        She stressed that “NCUA has an
                                     interest in ensuring that these loans are prudently
                                     underwritten and clearly understood by borrowers wherever
                                     they are offered.” Chairman Johnson stated that in addition
                                     to the agency’s practices and policies outlining safe, sound
                                     mortgage lending practices, NCUA supports the recently
                                     proposed Interagency Guidance on Subprime Mortgage
                                     Lending. With regard to the Interagency Guidance, Chairman
                                     Johnson said that “NCUA is working with the other agencies
                                     to finalize this important guidance as soon as possible.”

                                     NCUA SEES STAFFING SELECTIONS AND CHANGES

                                     On February 23, 2007, the NCUA Board selected Deputy
                                     Executive Director Jane Walters to be the Capital Region II
                                     Director, filling the position left vacant with the retirement of
                                     Edward P. Dupcak.           As Region II director, Walters is
                                     responsible for the supervision and examination program of
                                     credit unions in Delaware, District of Columbia, Maryland,
                                     New Jersey, Pennsylvania, Virginia and West Virginia. The
                                     Chairman’s office saw the departure of Senior Advisor and
                   5                                                6
   OIG Semiannual Report                 March 2007                  OIG Semiannual Report                March 2007


Chief of Staff Holly Herman in November 2006, and the
subsequent appointment, in February 2007, of Peter C.             understanding and evaluation of the NCUA’s outreach efforts
Barrett as Senior Policy Advisor to the Chairman. Mr. Barrett     in response to the findings in the agency’s Member Service
will advise Chairman Johnson on a broad range of issues           Assessment Pilot—MSAP: A Study of Federal Credit Union
pertaining to the agency as well as help oversee day to day       Service. The thirteen member internal Outreach Task Force
operations. In November and December 2006, respectively,          held its first meeting on January 30, 2007. NCUA initiated
NCUA selected John E. Kutchey as Director of Risk                 MSAP in 2006 as a result of questions raised by the House
Management and Mike J. McNeill as the agency’s                    Ways and Means Committee and the Government
Ombudsman. As Director of Risk Management, Mr. Kutchey            Accountability Office (GAO) regarding the income distribution
is responsible for overseeing NCUA’s credit union problem         of federal credit union (FCU) members, the types of services
resolution program, while as Ombudsman, Mr. McNeill will          FCUs provide to their members, and the transparency of FCU
investigate complaints that relate to regulatory issues that      executive compensation.
cannot be resolved at the operational (regional) level and
recommend solutions.                                              NCUA AND FINCEN HOLD BSA COMPLIANCE WEBINAR

VICE CHAIRMAN HOOD HOLDS RISK MITIGATION                          More than 2,000 members of the credit union industry
SUMMIT                                                            participated, on February 6, 2007, in the first webinar hosted
                                                                  jointly by the NCUA and the Financial Crimes Enforcement
NCUA Vice Chairman Rodney E. Hood hosted a Risk Mitigation        Network (FinCen). The free webinar, entitled BSA: A Year in
Summit January 11, 2007, at the United States Chamber of          Review and Setting the Table for 2007, provided information
Commerce in Washington, D.C.             The event brought        and guidance to credit unions about Bank Secrecy Act (BSA)
government and industry leaders together to discuss the           obligations. The interactive electronic format allowed viewers
latest and most effective techniques for risk mitigation. Vice    to ask questions to NCUA and FinCen panelists about NCUA’s
Chairman Hood expressed his belief that it is not enough for      BSA compliance issues, recent regulatory changes, how to
credit unions to avoid risks, but to manage them effectively in   prepare for a BSA compliance review, and FinCen’s role as
order to stimulate economic growth. The Summit featured           BSA administrator. The program also included a presentation
sessions on loan funding alternatives, risk measurement and       on the value of BSA data and how FinCen uses it. The
management approaches, and various outlets for asset              webinar and Q&A session is available online at
securitization and sales.                                         www.ncua.gov.

BOARD MEMBER HYLAND LEADS OUTREACH TASK
FORCE

Chairman Johnson appointed Board Member Gigi Hyland last
November to lead an Outreach Task Force to gain a better
                              7                                                                 8
   OIG Semiannual Report                 March 2007                  OIG Semiannual Report                March 2007




                                                                  LOANS INCREASED AND INVESTMENTS DECREASED
    FEDERALLY INSURED CREDIT UNION
              HIGHLIGHTS                                          Loan growth of 7.88 percent resulted in an increase in total
                                                                  loans by $36.1 billion. Total net loans of $491 billion
Credit unions submit quarterly call reports (financial and        comprise 70 percent of credit union assets. First mortgage
operational data) to the NCUA. An NCUA staff assessment of        real estate loans increased 10.04 percent and other real
the December 31, 2006, quarterly call reports submitted by        estate loans increased 15.03 percent. First mortgage real
all federally insured credit unions found that key financial      estate loans are the largest single asset category with
indicators were stable.                                           $159.68 billion accounting for 32.30 percent of all loans.
                                                                  Other real estate loans of $84.44 billion account for 17.08%
                                                                  of all loans. Used car loans of $87.56 billion were 17.71% of
KEY FINANCIAL INDICATORS STABLE                                   all loans, while new car loans amounted to $88.53 billion or
                                                                  17.91% of total loans.        Credit card loans totaled $26.54
Looking at the December 31, 2006 quarterly statistics for         billion or 5.37% of total loans and other unsecured loans
major balance sheet items and key ratios shows the following      totaled $22.6 billion for 4.57% of total loans. The remaining
for the nation’s 8,362 federally insured credit unions: assets    5.06% of loans was $24.99 billion in other loans. Total
grew 4.61 percent, or $31.28 billion; net worth to assets ratio   investments decreased 4.17 percent to $179.5 billion.
increased from 11.24 to 11.54 percent; the loan to share ratio    Investments with maturities less than one year increased 5.01
increased from 79.33 percent to 82.23 percent; the                percent, while long term investments decreased 14.87
delinquency ratio decreased from .73 to .68 percent; and          percent.
credit union return on average assets decreased from .85
percent to .82 percent.


SAVINGS SHIFTING TO CERTIFICATES OF DEPOSIT

Total insured share accounts increased 3.92 percent, or
$20.14 billion. Regular shares comprise 30.11 percent of
total share accounts; share certificates increased 23.81
percent; money market shares increased 1.44 percent; and
share draft accounts decreased 6.75 percent.



                              9                                                                10
   OIG Semiannual Report                March 2007                  OIG Semiannual Report                  March 2007


                                                                 lending cap. The legislation would also: establish an 85%
                                                                 guarantee on SBA loans of up to $250,000 for credit unions
                                                                 lending to businesses in underserved areas; create a credit
           LEGISLATIVE HIGHLIGHTS                                union outreach program within the SBA that would help credit
                                                                 unions use the 7(a) loan program more effectively; and
HOUSE INTRODUCES REVISED CURIA BILL                              require the agency to make annual reports to Congress on its
                                                                 efforts to get credit unions more active in SBA lending. The
On March 15, 2007, Representatives Paul Kanjorski, D-Pa.         bill has been referred to the House Financial Services and the
and Ed Royce, R-Calif., introduced the 2007 Credit Union         House Small Business committees.
Regulatory Improvements Act (CURIA), H.R. 1537, with two
new provisions. The revised bill combines a series of            NCUA JOINS OTHER FEDERAL REGULATORS ON
regulatory enhancements that, according to Rep. Kanjorski,       PROPOSED MODEL PRIVACY NOTICE
“will allow credit unions to operate more effectively and
efficiently.” Specifically, CURIA modernizes credit union net    On March 20, 2007, NCUA joined seven other federal
worth standards; advances credit union efforts to promote        regulators (the Board of Governors of the Federal Reserve
economic growth; and modifies credit union regulatory            System, the Commodity Futures Trading Commission, the
standards by eliminating unnecessary, burdensome, and            Federal Deposit Insurance Corporation, the Federal Trade
outdated regulations, as well as making other reforms to         Commission, the Office of the Comptroller, the Office of Thrift
credit union oversight and governance. The new version of        Supervision, and the Securities and Exchange Commission) in
CURIA updates current law to allow all types of credit unions    issuing a notice of proposed rulemaking (NPR) requesting
to expand their fields of membership in order to better serve    comments on a model privacy form that financial institutions
underserved areas. The bill also unifies and strengthens the     may use for their privacy notices to consumers, as required
definition of an “underserved area” with the Federal Credit      by the Gramm-Leach Bliley Act (the GLB Act). The privacy
Union Act. The bill was referred to the House Financial          notices must describe an institution’s information-sharing
Services Committee and awaits committee action.                  practices and, for certain types of sharing, consumers have
                                                                 the right to opt out. The notices must be provided when a
HOUSE BILL PROMOTES CREDIT UNION BUSINESS                        consumer first becomes a customer of a financial institution,
LENDING                                                          and then annually for as long as the customer relationship
                                                                 lasts. Last October, President Bush signed into law the
House Small Business Chairwoman Nydia Velasquez, D-N.Y.,         Financial Services Regulatory Relief Act of 2006, amending
introduced a bill on March 29, 2007, that would enable credit    the GLB Act to require the agencies, including NCUA, to
unions to do more business lending. The Credit Union Small       propose a model form that is succinct and comprehensible to
Business Lending Act, H.R. 1849, would exempt the                consumers, allows consumers easily to compare privacy
nonguaranteed portion of the Small Business Administration       notices of financial institutions, and uses easily readable type
7(a) loans from counting against credit unions’ small business   font.
                             11                                                                12
   OIG Semiannual Report               March 2007                     OIG Semiannual Report                          March 2007




   OFFICE OF THE INSPECTOR GENERAL
The Office of the Inspector General was established at the
NCUA in 1989 under the authority of the Inspector General                        William DeSarno
Act of 1978, as amended in 1988. The staff consists of the
                                                                                        Inspector
Inspector General, Counsel to the Inspector General,                                     General
Assistant Inspector General for Audits, Director of
Investigations, two Senior Auditors, Senior Information
Technology Auditor, and Office Manager.

The Inspector General reports to, and is under the general                 Sharon
                                                                          Regelman
supervision of, the NCUA Board. The Inspector General is
responsible for:                                                       Office Manager


1. Conducting, supervising, and coordinating audits and
investigations of all NCUA programs and operations;

2. Reviewing policies and procedures to ensure efficient and   Sharon Separ          Anne Voegele            Jim Hagen

economic operations as well as preventing and detecting        Counsel to the          Director of         Assistant IG for
fraud, waste, and abuse;                                            IG               Investigations             Audits



3. Reviewing      existing and proposed legislation and
regulations to evaluate their impact on the economic and
efficient administration of agency programs; and
                                                                                     Charles                  Dwight          Tammy Rapp,
                                                                                 Funderburk, CPA           Engelrup, CPA       CPA, CISA
4. Keeping the NCUA Board and the Congress apprised of
                                                                                     Senior Auditor        Senior Auditor      Senior IT
significant findings and recommendations.                                                                                       Auditor




                             13                                                                       14
   OIG Semiannual Report                 March 2007                 OIG Semiannual Report                 March 2007


                                                                 scheduling is usually performed in accordance with agency
                                                                 guidance. Scheduling for the risk-focused examinations we
                  AUDIT ACTIVITY                                 reviewed coincided with agency guidance in 83 of the 90
                                                                 exams in our sample.

                                                                 Part of regional monitoring and quality control for the RFE
AUDIT REPORTS ISSUED
                                                                 involves the preparation of formal Quality Control Reviews
                                                                 (QCR) by regional supervision analysts in specific instances to
OIG-06-08 – October 16, 2006                                     ensure standards are met by the examiner. Also, periodic
NCUA’S RISK-FOCUSED EXAMINATION PROCESS FOR FEDERAL              formal evaluations of specific examinations are prepared by
CREDIT UNIONS                                                    supervisory examiners for examiner staff development. We
The NCUA commits the majority of its resources promoting a       found that 94 percent of the required QCR were completed.
system of financially sound, well managed, federally insured     After our discussion with region management, plans were
credit unions. A key element in this process was the change      initiated to ensure all future QCR are performed in a timely
in 2001 to risk-focused examinations (RFE) for federal credit    manner.      We found that formal supervisory examiner
unions. The objective of the RFE process is to enable NCUA       evaluations were being prepared in accordance with agency
to identify and address risks before they become major           guidance.
problems. Due to the importance and emphasis by NCUA on
the examination and supervision function, we identified the      Our report includes one recommendation to NCUA to clarify
RFE process for review.      Our review objective was to         guidance regarding the assignment of CAMEL composite
determine whether NCUA has a process in place to provide         ratings in relation to the development of DOR for Federal
assurance that high risk areas are identified and addressed      Credit Unions rated CAMEL 1. Management agreed with our
throughout the RFE process.                                      recommendation and is in the process of taking corrective
                                                                 action.
Overall, we found that the RFE process appears adequate.
Regional staff are preparing the examination forms and           OIG-06-09 – December 18, 2006
documentation in accordance with agency guidance with few        OFFICE OF FOREIGN ASSET CONTROL COMPLIANCE REVIEW
exceptions.    Agency guidance indicates Documents of            The United States Congress has shown an interest in the
Resolution (DOR) are normally prepared to correct                status of financial institutions’ compliance with the
unacceptable risk situations, and not to address minor issues.   Department of the Treasury’s Office of Foreign Asset Control
CAMEL 1 credit unions are normally those credit unions with      (OFAC) administered laws and regulations. Therefore, the
only minor weaknesses that can be handled in a routine           NCUA OIG initiated a review to determine whether NCUA
manner by the board of directors and management.                 provides effective supervision over federally chartered credit
However, we found DOR were issued for 12 of the 36 CAMEL         unions’ compliance with OFAC requirements.
1 sample examinations we reviewed. We found examination
                             15                                                                16
   OIG Semiannual Report                 March 2007                 OIG Semiannual Report                 March 2007


We reviewed OFAC program requirements as well as NCUA            respectively. However, in both instances we found the
policies, procedures and guidance related to the examination     guidance too general, especially with regard to guidelines for
and supervision of credit unions’ compliance with those          examiner review of credit union compliance programs.
requirements. In addition, we reviewed the Federal Financial
Institutions Examination Council (FFIEC) Bank Secrecy            The OIG has made two recommendations that should result
Act/Anti-Money Laundering Examination Manual (BSA/AML            in an improved OFAC compliance examination program. The
Manual) as it relates to OFAC requirements. Finally, we          Office of Examination and Insurance agreed with both
reviewed reports of examination and related examination          recommendations and is in the process of taking corrective
workpapers for a random judgmentally selected sample of 12       action to address these two recommendations.
federally chartered credit unions.
                                                                 OIG-07-01 – February 7, 2007
Our efforts to evaluate and verify the examiners’ conclusions    REVIEW OF NCUA’S COMPLIANCE WITH OMB M-06-16
were hampered by the lack of documentation. We were              PROTECTION OF SENSITIVE AGENCY INFORMATION
unable to determine conclusively whether NCUA was                The NCUA OIG performed a limited scope review assessing the
effectively supervising federal credit unions’ compliance with   NCUA’s actions to ensure that personally identifiable
OFAC regulations.         Under the NCUA Risk Focused            information (PII) and sensitive information is safeguarded, in
Examination program, OFAC compliance is not required to be       accordance with the Office of Management and Budget (OMB)
reviewed at each examination and NCUA examination                Memorandum M-06-16, “Protection of Sensitive Agency
workpapers are exception based. If an examiner concludes         Information.”
that an institution is OFAC compliant, there is no requirement
that the examiner maintain copies of documentation to            To determine compliance with OMB M-06-16, we interviewed
support that conclusion. We believe, however, that this          key agency officials responsible for privacy protection,
policy makes it difficult to assess the adequacy of              reviewed applicable policies and procedures related to privacy,
examinations and creates inconsistency in how program            inquired about outstanding issues identified during the 2006
results are documented.                                          Federal Information Security Management Act (FISMA) audit,
                                                                 and compared encryption products used at NCUA with the
Eleven of twelve credit unions in our sample were reviewed       National Institute of Standards and Technology’s (NIST)
by NCUA examiners for OFAC compliance. However, there            Federal Information Processing Standards 140-2 validated
was a lack of supporting documentation for some OFAC             product list. We performed limited tests on control procedures
examination procedures performed, and only six of the            identified during this review.
twelve examinations made use of the NCUA OFAC checklist.
                                                                 As a result of this review, the OIG determined that NCUA
NCUA has issued guidance to both credit unions and               needs to strengthen its privacy program to ensure that PII and
examiners which address the requirements for an OFAC             sensitive data are appropriately protected. Most importantly,
compliance program and supervision of that program,              NCUA needs to ensure that member financial and personal
                             17                                                                18
   OIG Semiannual Report                March 2007                  OIG Semiannual Report                  March 2007


                                                                 Insurance Fund’s financial statements. The Fund’s total
data is protected from potential unauthorized access.            assets for 2006 were $7.1 billion, up from $6.7 billion in 2005.
Although we identified several weaknesses in the actions
NCUA has taken to protect PII and sensitive information, we      THE CENTRAL LIQUIDITY FACILITY (OIG-07-04) was
determined that NCUA is making progress to strengthen its        established as a mixed ownership government corporation
policies and procedures for protecting both. The OIG has         managed by the NCUA Board to improve general financial
made eleven recommendations and management has already           stability by meeting the liquidity needs of credit unions. The
taken action on several of those recommendations and has         auditors issued an unqualified opinion on the Central
planned corrective action to address the remaining               Liquidity Facility’s (CLF) financial statements. The CLF’s total
recommendations.                                                 assets for 2006 were $1.6 billion, up from $1.5 billion in 2005.

OIG-07-02, 03, 04, & 05 – March 12, 2007                         THE COMMUNITY DEVELOPMENT REVOLVING LOAN FUND’S
NCUA FINANCIAL STATEMENTS DATED FEBRUARY12, 2007                 (OIG-07-05) purpose is to stimulate economic activities in
Our contracting audit firm, Deloitte & Touche LLP, issued        the communities served by low-income credit unions. This in
opinions on the 2006 financial statements of the National        turn will result in increased income, ownership and
Credit Union Administration Operating Fund, National Credit      employment opportunities for low-wealth residents and other
Union Share Insurance Fund, the Central Liquidity Facility,      economic growth. The auditors issued an unqualified
and the Community Development Revolving Loan Fund. The           opinion on the Fund’s financial statements. The Community
auditors found that the financial statements presented fairly    Development Revolving Loan Fund’s total assets for 2006
the financial position of the agency’s funds as of December      were $16.1 million, down from $16.5 million in 2005.
31, 2006. The firm issued its opinions on February 12, 2007.
                                                                 The financial auditors did not find any matters considered to
THE NCUA OPERATING FUND (OIG-07-02) was established              be material weaknesses in their review of the Funds’ internal
as a revolving fund managed by the NCUA Board for the            control structures pertinent to financial reporting. However,
purpose of providing administration and service to the federal   during the performance of the audit, several observations and
credit union system. The auditors issued an unqualified          recommendations were presented relating to internal control
opinion on the Operating Fund’s financial statements. The        over financial reporting, and certain other accounting,
funds total assets for 2006 were $63.5 million, down from        administrative,         and         operating         matters.
$64.1 million in 2005.

THE NATIONAL CREDIT UNION SHARE INSURANCE FUND                   AUDITS IN PROGRESS
(OIG-07-03) was established as a revolving fund managed
by the NCUA Board to insure member share deposits in all
                                                                 REAL ESTATE LENDING REVIEW
Federal credit unions and qualifying state credit unions. The
auditors issued an unqualified opinion on the Share              During the first nine months ending September 30, 2006,
                                                                 federally insured credit union assets increased 3.28 percent to
                             19                                                                20
   OIG Semiannual Report                March 2007                   OIG Semiannual Report                 March 2007


$700.9 billion from $678.7 billion, with loans increasing 6.47
percent to $487.9 billion from $458.2 billion. Lending grew       addition we will determine what is the process for follow-up
across the board with the exception of loan leases. The credit    on the identified deficiencies and is follow-up and resolution
unions reported 1st mortgage real estate loans expanded 8.20      of problems completed in a timely manner. We initiated a
percent and other types of real estate loans grew 13.13           survey of this area in late January 2007.
percent. Combined, first mortgage and other types of real
estate loans grew 9.86 percent through the third quarter of       ENCRYPTION REVIEW
2006. Real estate guidance is available to examiners in NCUA      Following numerous incidents involving the compromise or
issuances such as Supervisory Letter 05-02, and the examiner      loss of sensitive personal information, OMB issued
guide.                                                            memorandum M-06-16 requiring agencies to take specific
                                                                  actions to protect personally identifiable information. In
We are conducting a survey of real estate lending to              2006, the NCUA OIG completed fieldwork and subsequently
determine the significance of real estate lending in the credit   issued a report regarding NCUA’s compliance with M-06-16
union system and the risks that real estate lending poses to      (OIG-07-01). During this limited scope review and the 2006
the share insurance fund and what NCUA is doing to mitigate       FISMA audit, the OIG identified several weaknesses
these risks? We initiated a survey of this area in January        regarding the use of encryption at NCUA.
2007.
                                                                  In this follow-up review we will determine if NCUA is
TRACKING IDENTIFIED DOCUMENTS OF RESOLUTION (DOR)                 adequately protecting sensitive electronic data. Specifically,
REVIEW                                                            we will be reviewing examiner notebooks, USB drives, and
This audit is a follow on review to the Risk Focused Exams –      other media to determine if sensitive credit union member
Internal Control Review (OIG-06-08 October 18, 2006).             data obtained during examinations are stored in an
DOR’s are issued to correct deficiencies identified during        encrypted format. We initiated a follow-up review of this
examinations of credit unions. There are approximately            area in February 2007.
5,200 Federal Credit Unions. Low risk credit unions as
identified by CAMEL ratings 1 and 2 represented ninety-five       SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH
percent of the insured shares and seventy-seven percent of        CORRECTIVE ACTION HAS NOT BEEN COMPLETED
the number of credit unions. High risk credit unions as           As of March 31, 2007, there were no significant audit
identified by CAMEL ratings 3, 4, and 5 represented five          recommendations on reports issued over six months ago that
percent of the insured shares and twenty-three percent of         have not been either fully implemented or are in the process
the number of credit unions.                                      of implementation.

Based on work we conducted on the Risk Focused Exam
review we wanted to determine if NCUA has a process in
place to track deficiencies identified during exams. In
                             21                                                                 22
   OIG Semiannual Report                  March 2007                  OIG Semiannual Report                March 2007



                                                                   our Office Manager, under the direction of our Director of
            INVESTIGATIVE ACTIVITY                                 Investigations. The majority of hotline contacts are from
                                                                   consumers seeking help with a problem with a credit union.
In accordance with professional standards and guidelines           These contacts are referred to the appropriate NCUA regional
established by the Department of Justice, the OIG conducts         office for assistance.    During this reporting period, we
investigations of criminal, civil, and administrative wrongdoing   referred 188 consumer complaints to regional offices. Also
involving agency programs and personnel. Our investigative         during this reporting period, we referred one allegation to
program focuses on activities designed to promote economy,         agency management for action.
effectiveness, and efficiency, as well as fighting fraud, waste,
and abuse in agency programs. In addition to our efforts to        In our last three semiannual reports, we reported on Phishing
deter misconduct and promote integrity awareness among             attempts made by individuals using the NCUA name and logo
agency employees, we investigate referrals and direct reports      in an effort to obtain personal and confidential information
of employee misconduct. Investigations may involve possible        from credit union members. In the semiannual report we
violations of regulations regarding employee responsibilities      reported that the number of complaints to our office had
and conduct, Federal criminal law, and other statutes and          increased from approximately 400 to approximately 1100.
regulations pertaining to the activities of NCUA employees.        During this reporting period, however, there has been a
                                                                   significant drop in complaints. In the past six months, our
Moreover, we receive complaints from credit union members          office handled approximately 191 reports or inquiries
and officials that involve NCUA employee program                   regarding suspected Phishing attempts, 108 of which required
responsibilities. We examine these complaints to determine         a response from us.
whether there is any indication of NCUA employee
misconduct. If not, we refer the complaint to the appropriate      INVESTIGATIONS
regional office for response, or close the matter if contact
                                                                   During the last reporting period the Office of Investigations
with the regional office indicates that the complaint has
                                                                   initiated two new investigations and closed four.
already been appropriately handled.


                                                                   MISUSE OF GOVERNMENT ISSUED CREDIT CARD
OIG HOTLINE CONTACTS
                                                                   The OIG received a referral from an NCUA Regional Office of
The OIG maintains a toll free hotline to enable employees and
                                                                   allegations that an employee had been misusing her
citizens to call with information about waste, fraud, abuse or
                                                                   Government issued credit card. This employee had previously
mismanagement involving agency programs or operations.
                                                                   been the subject of an OIG investigation for the same
We also receive complaints through an off-site post office
                                                                   offense. The previous investigation determined that the
box, from electronic mail, and facsimile messages.          All
                                                                   employee had repeatedly misused her credit card for personal
information received from any of these sources is referred to
                                                                   purchases and in that case the agency imposed a three day
as a hotline contact. The OIG hotline program is handled by
                              23                                                                24
   OIG Semiannual Report                March 2007                   OIG Semiannual Report                March 2007




                                                                  LEGISLATIVE AND REGULATORY REVIEWS
suspension. In this investigation, the OIG again determined
that the employee had repeatedly misused her credit card.
As of the date of this report, the agency is considering          Section 4(a) of the Inspector General Act requires the
appropriate action.                                               Inspector General to review existing and proposed legislation
                                                                  and regulations relating to the programs and operations of
                                                                  the NCUA and to make recommendations concerning their
CRIMINAL COMPUTER FRAUD                                           impact. Moreover, we routinely review proposed agency
During the last reporting period, we reported on a case           instructions and other policy guidance, in order to make
involving allegations that a retired NCUA Examiner may have       recommendations concerning economy and efficiency in the
illegally accessed the NCUA computer system. A criminal           administration of NCUA programs and operations and the
case was initiated and the OIG invited the FBI to participate.    prevention and detection of fraud, waste and abuse.
The ensuing joint OIG/FBI investigation determined that a
retired employee, who since retirement had been employed          During the reporting period, the OIG reviewed 18 items,
by a credit union, had illegally accessed confidential credit     including proposed and final legislation and regulations, and
union information from the NCUA system. He used the               internal NCUA issuances. The OIG submitted comments on
information to assist him in his work assignments for the         one agency Procedure.
credit union and its wholly owned Credit Union Service
Organization, which provides fee-for-service assistance to
other credit unions. The case was prosecuted by the United       SUMMARY OF STATUTES AND REGULATIONS REVIEWED
States Attorney’s Office, Eastern District of Virginia. The       Legislation/E.O.                        Title
former employee pleaded guilty and in February 2007, was              H.R. 1537         “Credit Union Regulatory Improvements Act”
sentenced to two years supervised probation; a $4,000 fine;           H.R. 928        “The Improving Government Accountability Act”
50 hours of community service; and an assignment to write              S. 680             “Accountability in Government Contracting
an essay on his crime.                                                                                    Act of 2007”
                                                                    H.R. 1309              “Open Government: Reinvigorating the
Two other investigations resulting from this case were closed                                   Freedom of Information Act”
to the file for lack of evidence.                                    H.R. 985          “The Whistleblower Protection Enhancement
                                                                                                          Act of 2007”
                                                                     H.R. 789                 “Government Credit Card Abuse
                                                                                                  Prevention Act of 2007”
                                                                    H.R. 1300            “The Program for Real Energy Security Act”




                             25                                                                26
        OIG Semiannual Report                  March 2007                        OIG Semiannual Report                                March 2007


  Regulations/Rulings                              Title
     12 CFR Parts 745          Final Rule: “Share Insurance Appeals;
          and 747               Clarification of Enforcement Authority “
                                          Of the NCUA Board”                                                         TABLE I
    12 CFR Part 701        Interim Final Rule: “General Lending Maturity
                                  Limit and Other Financial Services”
                                                                                             INSPECTOR GENERAL ISSUED REPORTS
   12 CFR part 708a          Final Rule: “Conversion of Insured Credit
                                                                                                  WITH QUESTIONED COSTS
                                   Unions to Mutual Savings Banks”
    12 CFR Part 703           Final Rule: “Permissible Investments for                                                         Number of   Questioned Unsupported
                                         Federal Credit Unions”                                                                 Reports      Costs       Costs
    12 CFR part 740           Final Rule: “Accuracy of Advertising and                 For which no management decision
                                        Notice of Insured Status”          A.             had been made by the start
    12 CFR Part 748              Final Rule: “Filing Requirements for                       of the reporting period.              0           $0          $0
                                      Suspicious Activity Reports”
                                                                           B.                    Which were issued
12 CFR Parts 748 and 749       Proposed Rule: “Records Preservation
                                                                                          during the reporting period.            0            0           0
                                                 Program”
    12 CFR Part 716            Interagency Proposal for Model Privacy                            Subtotals (A + B)                0            0
                              Form under the Gramm-Leach-Bliley Act”                    For which management decision
                                                                           C.
                                 Interagency Statement on Subprime                was made during the reporting period.           0            0           0
                                            Mortgage Lending                    (i)      Dollar value of disallowed
   Agency Issuances                                Title                                 costs                                    0            0           0
                                  “Executive Resources Board (ERB)              (ii)        Dollar value of
                                         Operating Procedures”                                costs not disallowed                0            0           0
                                “NCUA Continuity of Operations Plan”                   For which no management decision
                                                                           D.                    has been made by
                                                                                         the end of the reporting period.         0            0           0
                                                                                       Reports for which no management
                                                                           E.                    decision was made
                                                                                         within six months of issuance.           0            0           0


                                                                            Questioned costs are those costs the OIG has questioned because of
                                                                            alleged violations of laws, regulations, contracts, or other agreements;
                                                                            findings which at the time of the audit are not supported by adequate
                                                                            documentation; or the expenditure for the intended purpose is unnecessary
                                                                            or unreasonable.
                                                                            Unsupported costs (included in "Questioned Costs") are those costs the OIG
                                                                            has questioned because of the lack of adequate documentation at the time
                                                                            of the audit.

                                   27                                                                                     28
       OIG Semiannual Report                             March 2007                OIG Semiannual Report                               March 2007




                                   TABLE II                                                                  TABLE III

                                                                                                 SUMMARY OF OIG ACTIVITY
     INSPECTOR GENERAL ISSUED REPORTS WITH
                                                                                       OCTOBER 1, 2006 THROUGH MARCH 31, 2007
 RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                           Number of   Dollar
                                                                                                 PART I – AUDIT REPORTS ISSUED
                                                            Reports    Value
                                                                                Report                                                             Date
                                                                                Number                            Title                           Issued
            For which no management decision had
  A.
        Been made by the start of the reporting period.       0         $0                      NCUA’s Risk Focused Examination Process
                                                                                OIG-06-08                                                        10/16/2006
                                                                                                       for Federal Credit Unions
  B.     Which were issued during the reporting period.       0          0
                                                                                OIG-06-09   Office of Foreign Asset Control Compliance Review    12/18/2006
                         Subtotals (A + B)                    0          0
                                                                                            Review of NCUA’s Compliance with OMB M-06-16
                                                                                OIG-07-01                                                         2/7/2007
                                                                                               Protection of Sensitive Agency Information
          For which management decision was made
  C.
                    during the reporting period.              0          0                          NCUA Financial Statement Audit:
                                                                                OIG-07-02                                                        3/12/2007
                                                                                                      The NCUA Operating Fund
          (i)          Dollar value of recommendations
                                                                                                    NCUA Financial Statement Audit:
                    agreed to by management.                 N/A        N/A     OIG-07-03                                                        3/12/2007
                                                                                             The National Credit Union Share Insurance Fund
                                                                                                    NCUA Financial Statement Audit:
          (ii)         Dollar value of recommendations                          OIG-07-04             The Central Liquidity Facility             3/12/2007
                   not agreed to by management.              N/A        N/A
                                                                                                   NCUA Financial Statement Audit:
                                                                                OIG-07-05                                                        3/12/2007
         For which no management decision was made                                          The Community Development Revolving Loan Fund
  D.
                 by the end of the reporting period.          0          0

                                                                                       PART II – AUDITS IN PROGRESS            (as of March 31, 2007)
         For which no management decision was made
  E.                                                                                                            Real Estate Lending Review
                   within six months of issuance.             0          0
                                                                                                    Tracking Identified Documents of Resolution Review
Recommendations that "Funds to be Put to Better Use" are those OIG                                                  Encryption Review
recommendations that funds could be used more efficiently if management
took    actions    to     reduce    outlays,      de-obligate    funds from
programs/operations, avoid unnecessary expenditures noted in pre-award
reviews of contracts, or any other specifically identified savings.


                                          29                                                                          30
   OIG Semiannual Report                          March 2007




 INDEX OF REPORTING REQUIREMENTS

SECTION                    DATA REQUIRED                           PAGE REF
 4(a)(2)              Review of Legislation and Regulations           26
 5(a)(1)          Significant Problems, Abuses, or Deficiencies       15
                Relating to the administration of programs and
               Operations disclosed during the reporting period.
 5(a)(3)         Recommendations with Respect to Significant          15
                        Problems, Abuses, or Deficiencies.
 5(a)(3)           Significant Recommendations Described in           22
                     Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed.
 5(a)(4)         Summary of Matters Referred to Prosecution          None
                   Authorities and Prosecutions, Which Have
                                      Resulted.
 5(a)(5)        Summary of Each Report to the Board Detailing        None
                  Cases Where Access to All Records Was Not
                 Provided or Where Information Was Refused.
 5(a)(6)             List of Audit Reports Issued During the          30
                                  Reporting Period.
 5(a)(7)          Summary of Particularly Significant Reports.        15
 5(a)(8)             Statistical Tables on Audit Reports With         28
                                 Questioned Costs.
 5(a)(9)             Statistical Tables on Audit Reports With         29
                    Recommendations That Funds Be Put To
                                     Better Use.
5(a)(10)       Summary of Each Audit Report Issued Before the        None
           Start Of the Reporting Period for Which No Management
             Decision Has Been Made by the End of the Reporting
                                       Period.
5(a)(11)           Description and Explanation of Reasons for        None
                 any Significant Revised Management Decision
                       Made During the Reporting Period.
5(a)(12)       Information Concerning Significant Management         None
                 Decisions With Which the Inspector General is
                                  in Disagreement.




                                    31
WANTS TO HEAR
  FROM YOU
     CALL OUR TOLL-FREE HOTLINE
             TO REPORT
       FRAUD, WASTE OR ABUSE:
           1-800-778-4806

      WASHINGTON METRO AREA
           703 518-6357

               OR WRITE:
NATIONAL CREDIT UNION ADMINISTRATION
   OFFICE OF THE INSPECTOR GENERAL
            P.O. BOX 25705
      ALEXANDRIA, VA 22313-5705

     YOU MAY CALL ANONYMOUSLY,
  OR REQUEST THAT YOUR CALL BE KEPT
           CONFIDENTIAL

 OIG REPORTS AND OTHER INFORMATION
 ARE NOW AVAILABLE VIA THE INTERNET
                 AT
         WWW.NCUA.GOV/OIG
